               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




   Evaluation of the External First-Class
           Measurement System

                       Audit Report




                                         September 18, 2012

Report Number FF-AR-12-006
                                                                     September 18, 2012

                                                Evaluation of the External First-Class
                                                                Measurement System

                                                          Report Number FF-AR-12-006



BACKGROUND:
The U.S. Postal Service measures              process to an automated process.
whether it delivers First-Class Mail on       However, the Postal Service has not yet
time and meets mail delivery standards        developed a plan to automate this
to provide the Postal Regulatory              process. Without automation, the Postal
Commission (PRC) and the general              Service will continue having to pay the
public with information on its service        costs associated with manual reporting
performance. The postmaster general           of test pieces. The automation plan
requested we review whether there was         should explore technological solutions
a less costly way to implement this           such as using barcodes and hand held
process, known as the External                scanners to provide an effective
First-Class (EXFC) measurement                end-to-end alternative to the current
system. In addition, we evaluated the         process. These technological solutions
integrity and usefulness of EXFC.             should also help to reduce costs and
                                              provide more reliable service
The law generally requires the                performance measurement results.
measurement system to be external to
ensure the objectivity and integrity of the   In addition to cost reductions, we
system. Accordingly, the Postal Service       identified issues that affect program
measures on-time performance using            reliability. Specifically, EXFC is
studies conducted by a contractor.            vulnerable to ‗gaming‘ as management
                                              and staff often give potential test pieces
WHAT THE OIG FOUND:                           preferential treatment to raise scores.
We identified alternatives to reduce
EXFC costs. For example, the Postal           WHAT THE OIG RECOMMENDED:
Service could reduce its sampling costs       We recommended using EXFC only to
by using EXFC for its primary purpose         meet statutory requirements, developing
of service performance measurement. It        a comprehensive plan to replace the
could also, with PRC approval, replace        current EXFC activities with an
the contractor with an internal group or      automated solution and developing
the next contract can be competed to          controls to eliminate unauthorized
reduce costs.                                 special treatment of test pieces.

Further, the current contract relies on       Link to review the entire report
costly manual reporting and recording of
test pieces. When negotiating the last
EXFC contract, management intended
to transition from the current, manual
September 18, 2012

MEMORANDUM FOR:            MEGAN BRENNAN
                           CHIEF OPERATING OFFICER AND EXECUTIVE VICE
                           PRESIDENT

                           JAMES P. COCHRANE
                           VICE PRESIDENT, PRODUCT INFORMATION




FROM:                      John E. Cihota
                           Deputy Assistant Inspector General
                            for Financial Accountability

SUBJECT:                   Audit Report – Evaluation of the External First-Class
                           Measurement System (Report Number FF-AR-12-006)

This report presents the results of our audit of the External First-Class Measurement
System (Project Number 11BG016FF000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Kevin H. Ellenberger, director,
Data Analysis and Performance, or me at 703-248-2100.

Attachments

cc: Joseph Corbett
    Corporate Audit and Response Management
Evaluation of the External First-Class                                                                        FF-AR-12-006
 Measurement System


                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 3

External First-Class Measurement System Reporting Requirements and Cost Reduction
Alternatives ..................................................................................................................... 3

   Alternatives to the Current Service Measurement Contract ......................................... 5

   Non-Contractor Alternative .......................................................................................... 5

   Competing the Contract Alternative ............................................................................. 6

External First-Class Measurement System Planning and Technological Alternatives ..... 6

   Using Intelligent Mail Barcode as an Automated Replacement to External First-Class
   Measurement System and Other Service Performance Measurement Processes ...... 8

   Other Automation Options ........................................................................................... 9

Current External First-Class Measurement System Vulnerabilities ................................. 9

   Preferential Processing of Sample Pieces ................................................................... 9

   Employee Participation in Induction and Reporting of Test Results .......................... 13

Recommendations ........................................................................................................ 14

Management‘s Comments ............................................................................................ 14

Evaluation of Management‘s Comments ....................................................................... 16

   Evaluation of Management Comments to Recommendation 1 .................................. 16

   Evaluation of Management Comments to Recommendation 2 .................................. 17

Appendix A: Additional Information ............................................................................... 18

   Background ............................................................................................................... 18

   Objective, Scope, and Methodology .......................................................................... 19

   Prior Audit Coverage ................................................................................................. 20
Appendix B: Monetary Impacts ..................................................................................... 21

Appendix C. Additional Finding Information .................................................................. 23

Appendix D. External First-Class Measurement System Survey ................................... 32

Appendix E. Management‘s Comments ........................................................................ 37




                                              Restricted Information
Evaluation of the External First-Class                                                              FF-AR-12-006
 Measurement System


Introduction

This report presents the results of our audit of the External First-Class Measurement
System (EXFC) (Project Number 11BG016FF000) and responds to a request from the
postmaster general. Our objective was to determine whether EXFC is an effective tool
for the U.S. Postal Service to measure First-Class Mail®1 service performance. This
audit addresses financial risk. See Appendix A for additional information about this
audit.

The Postal Service measures whether it delivers mail on time and in accordance with
mail delivery standards. To accomplish this, it has a contractor, International Business
Machines (IBM),2 conduct service measurement studies for many different classes of
mail. The Postal Accountability and Enhancement Act of 2006 (Postal Act of 2006)
requires an external party to conduct these studies to ensure the objectivity and integrity
of the system. The Postal Regulatory Commission (PRC), however, might approve a
qualified internal system as a replacement for an external one. The Postal Service uses
service performance measurement data to:

   Partially satisfy the legislative3 requirement to report to the PRC on the speed and
    reliability of delivery for market-dominant products.4 Market-dominant products are
    mailing services over which the Postal Service exercises sufficient market power to
    enable them to set prices with limited competition.

   Support the National Performance Assessment, a system of scorecards used to
    monitor the performance of the Postal Service and its individual units across the
    nation. National Performance Assessment supports the Postal Service‘s Pay for
    Performance program and Performance Evaluation System. As a result, the service
    performance of First-Class Mail affects non-bargaining employees‘ performance
    ratings and any associated performance pay increases or bonuses.

   Provide information for various internal operational needs such as conducting area
    mail processing studies and diagnosing delivery problems at plants, delivery units,
    and carrier routes.

Table 1 displays the current studies conducted by the contractor.




1
  First-Class Mail, ZIP Code, Confirm, and Intelligent Mail are trademarks of the Postal Service.
2
  The Postal Service awarded the Transit Time Measurement System (Contract Number 102592-02-B-0343) to Price
Waterhouse Coopers LLP (PwC) on October 26, 2001. In October 2002, IBM purchased PwC Consulting and
transferred the contract to IBM Global Business Services.
3
  Public Law 109-435, codified at 39 U.S.C.§3652 and 3691 (b).
4
  These products include mailing services such as First-Class Mail letters and sealed parcels, First-Class Mail cards,
Periodicals, Standard Mail, single-piece parcel post, media mail, bound printed matter, library mail, special services,
and certain international mail products.
                                                            1
         This report has not yet been reviewed for release under FOIA or the Privacy
         Act. Distribution should be limited to those within the Postal Service with a
         need to know.
Evaluation of the External First-Class                                                              FF-AR-12-006
 Measurement System



                     Table 1. Current Annual Costs of Contractor Studies
                                         (in millions)

                                                 Fiscal Year
                                                  (FY) 2011               FY 2012               FY 2013
                Study Name                         (Actual)5             (Planned)6           (Estimated)7
      EXFC                                              $23.6                  $24.3                 $24.8
      Intelligent Mail™ Accuracy                          10.9                  10.0                    9.7
      and Performance System8
      International Mail                                       1.2                    1.2                    1.3
       Measurement System9
      Other Studies10                                         2.1                    1.9                    2.0
      Postage11                                               3.0                    3.6                    3.6
      Total Annual Cost                                     $40.8                  $41.0                  $41.4
    Source: Postal Service budget data for service measurement contract.

These studies rely heavily on a group of volunteers (test group)12 that mails test pieces
from nearly all ZIP Codes across the country, while a separate test group records and
collects the delivery date information from the test pieces and reports the results to the
contractor. The contractor uses these groups for single-piece, commercial, and
international First-Class Mail and other studies to measure how timely the Postal
Service delivers the mail.

First-Class Mail measurement is done through EXFC, which is the largest study
conducted and relies heavily on manual processes based on input from the participant
test groups. The study measures the time it takes the Postal Service to deliver
single-piece First-Class Mail letters and flats to a household, small business, or Post
Office Box.

The Postal Service measures commercial mail through the Intelligent Mail Accuracy and
Performance System. The Intelligent Mail Accuracy and Performance System and the
International Mail Measurement System demonstrate the Postal Service‘s ability to track
mail by scanning pieces on automation equipment and to measure service
performance. However, these studies also rely on test groups to determine when mail is
delivered.
5
  Based on costs reported by the Transit Time Measurement System contract team.
6
  Based on current contract pricing data.
7
  Based on current contract pricing data and estimates provided by the Transit Time Measurement System contract
team.
8
  The Intelligent Mail Accuracy and Performance System process measures delivery of commercial mail.
9
  The International Mail Measurement System process measures delivery of international First-Class Mail.
10
   Other studies include the City Matrix Analysis, Return Receipt (for example, Green Card) Study, Intelligent Mail
Accuracy and Performance System diagnostic reports, Off Shore Special Study, and PRC Report 465 Study.
11
   This line item on the contract is for postage expenses for test pieces, communicating with the testers, and returning
test mail to the contractor for diagnostics.
12
   A group of volunteers the contractor recruits and who are responsible for mailing and reporting on EXFC test
pieces. The volunteers receive incentives, such as commemorative stamps and desk calendars. Droppers deposit
bundles of mail into collection boxes and get monetary incentives for driving to those collection boxes.


                                                           2
Evaluation of the External First-Class                                      FF-AR-12-006
 Measurement System



Conclusion

We identified alternatives to reduce EXFC costs. For example, the Postal Service could
reduce its sampling costs by using EXFC resources for its primary purpose of service
performance measurement. It could also, with PRC approval, replace the contractor
with an internal group or compete the next contract to reduce costs.

Further, the current contract relies on costly manual reporting and recording of test
pieces. The EXFC process was designed around a system of using test groups to
measure service performance by sending and receiving mail as though the test groups
were customers. The test groups would only mail large bundles at certain collection
points located away from post offices, such as a blue collection box on the street corner.
When negotiating the last EXFC contract, management intended to transition from the
current, manual process to an automated process. However, the Postal Service has not
yet developed a plan to automate this process. Without automation, the Postal Service
will have to continue paying the costs associated with manual reporting of test pieces.
The automation plan should explore technological solutions such as using barcodes and
hand held scanners to provide an effective end-to-end alternative to the current
process. These technological solutions should also help reduce costs and provide more
reliable service performance measurement results.

In addition to cost reductions, we identified issues that affect program reliability. For
example, EXFC is vulnerable to ‗gaming‘ as management and staff often give potential
test pieces preferential treatment to raise scores. For example, personnel take
extraordinary and costly measures to separate and deliver possible test pieces, and
Postal Service employees participated in the EXFC testing process by inducting mail
and reporting mail delivery times. Additionally, the Postal Service has not modified the
contractor‘s tester selection procedures to prevent Postal Service employees and their
family members from participating in the EXFC program.

As a result, the EXFC program costs more than what is necessary and the results might
not be accurate. We identified annual cost savings of about $4.1 million associated with
reducing the sample size and eliminating certain manual processing. See Appendix B
for the calculation of monetary impact.

External First-Class Measurement System Reporting Requirements and Cost
Reduction Alternatives

The Postal Service‘s use of EXFC data to plan, execute, and evaluate its internal
processes increased the sample size beyond what is necessary to meet the program‘s
statutory requirements. Internally, the Postal Service uses the data to support the
National Performance Assessment and diagnose delivery problems at plants, delivery
units and, in some instances, carrier routes. However, other internal reports already
produced can provide alternative data to meet needs to reduce the costly sampling




                                            3
 Evaluation of the External First-Class                                                                 FF-AR-12-006
  Measurement System


 associated with EXFC. Table 2 identifies EXFC reports currently used for internal
 processes where possible alternative data are available.

                             Table 2. Alternatives to Using EXFC Reports

              Use of
  Internal     EXFC          Possible
  Process       Data       Alternatives                                             Rationale
 Processing EXFC        Mail History                                The Mail History Tracking System
 First-Class Diagnostic Tracking System                             identifies specific processing errors
 Mail        Reports    and Intelligent Mail                        such as barcode mismatches13 and
                        Accuracy and                                mis-sequenced, mis-sorted, and mis-
                        Performance                                 sent mail to detect service problems
                        System                                      before they happen. Alternative
                                                                    systems would produce a more
                                                                    accurate representation of processing
                                                                    operations.
 Tracking          EXFC              Intelligent Mail®              The diagnostic system tracks barcodes
 Mail              Planet            barcode Service                and identification tags for commercial
 Processing        Code              Performance                    First-Class Mail, Standard Mail, and
 Scans             Reports           Diagnostics                    Periodicals and links the data to the
                                     application and                Mail History Tracking System.14
                                     Delivery Point                 Delivery Point Sequence Gap Analysis
                                     Sequence Gap                   provides more data than EXFC for
                                     Analysis                       monitoring delivery sequencing.
 Monitoring        Zero              Collection Point               The Collection Point Management
 Collection        Bundle            Management                     System monitors more than 200,000
 Boxes             Reports           System                         collection points where a customer can
                                                                    mail a First-Class letter. Because
                                                                    EXFC is only a sample, an alternative
                                                                    system would produce a more accurate
                                                                    representation of collection box
                                                                    management.
Source: Postal Service user manuals.

 If the Postal Service relied on available alternative sources for its internal data needs,
 the Postal Service could reduce the EXFC program sample size and realize an annual
 cost savings of $3.8 million, or $11.4 million over the 3 remaining years of the contract.
 See Appendix B for details of the monetary impact and Appendix C for additional
 information on sampling.




 13
    The system identifies barcode mismatches by comparing the barcode on the front of a mailpiece to the fluorescent
 barcode on the back of the mailpiece.
 14
    The system relies on the mailpiece identification or national identification tag, a 4-inch long fluorescent barcode, to
 retrieve the data associated with each mailpiece.


                                                             4
Evaluation of the External First-Class                                                              FF-AR-12-006
 Measurement System


Alternatives to the Current Service Measurement Contract

In addition to savings available through reduced sampling, the Postal Service could
consider two alternatives to the current contract that would provide additional cost
savings: (1) establishing an internal group to replace the current contractor or
(2) competing the next contract.15

Non-Contractor Alternative

The Postal Act of 2006 requires performance measurement systems for
market-dominant products to be external to ensure the objectivity and integrity of the
system. However, the act also authorizes the PRC to approve a qualified internal
system as a replacement for an external system. PRC officials expressed satisfaction
with the current EXFC process and stated that any replacement needs must have
reliability and integrity, and be representative of the mail. Staffing this function with
Postal Service or other government personnel could result in significant yearly savings.
For example, we found the Postal Service could save $6.7 million annually in labor
costs compared to current contract labor by moving EXFC and Intelligent Mail Accuracy
and Performance System activities to the U.S. Postal Service Office of Inspector
General (OIG),16 as noted in Table 3.

     Table 3. Comparison of Top Three EXFC and Intelligent Mail Accuracy and
                 Performance System Process Labor Categories17

                                                                                         Total Annual
  Labor Category                Contractor Rate                OIG Rate                   Savings18
 Consultant19                       $ 99.29                     $78.71                          $1,037,067
 Administrative20                   $ 82.04                     $63.99                             771,096
 Senior Consultant21                $133.02                     $91.37                           1,611,064
 Other Categories22                 $131.52                     $81.16                           3,255,102
 Total Savings                                                                                  $6,674,329
Source: Contract labor rates and OIG wage rates for FY 2010.

The OIG could assist with service performance measurement for market-dominant
products until the Postal Service develops automated processes. While EXFC

15
   As necessary, should an automated solution not be in place at the end of the contract period, scheduled for
September 2014.
16
   OIG employees could not receive test pieces confidentially, because we assumed their identities are generally
known. The OIG could subcontract for testers and production of the test pieces; however, the 99 full-time equivalents
(FTEs) to administer the program would redirect staff from ongoing audits or require additional resources.
17
   We compared 19 labor categories and displayed here the three with the most labor hours. This comparison
assumes the Postal Service replaces IBM consultants with OIG staff. We could not estimate savings on the smaller
studies but would still complete the studies for the Postal Service.
18
   The number of hours in each labor category is the basis for the total savings. Compares full contract price to fully
loaded wage rates.
19
   Contractor category compared to OIG journey employee category.
20
   Contractor category compared to OIG administrative employee category.
21
   Contractor category compared to OIG specialist employee category.
22
   Weighted average of remaining rates.


                                                           5
Evaluation of the External First-Class                                                             FF-AR-12-006
 Measurement System


represents nearly 67 percent of the workload for service performance measurement, the
OIG and the Postal Service could reorganize all the work with the consent of the PRC.
OIG employees are located in 278 of the 892 3-digit ZIP Codes tested. The OIG could
absorb the EXFC and Intelligent Mail Accuracy and Performance System components
by supplementing the difference (614 ZIP Codes) with a smaller test group of volunteers
and by obtaining Post Office Boxes in adjoining ZIP Codes. This method would be less
vulnerable to manipulation, because OIG employees could perform mail handling
inspections at delivery units and processing and distribution centers (P&DCs). The
Postal Service could establish international agreements with foreign posts to induct
bundles for the International Mail Measurement System process. If foreign posts
inducted the bundles, the 60 overseas droppers would not be required and the OIG
could measure the domestic leg of international mail. Likewise, the OIG could perform
other special studies on service performance measurement requested by the Postal
Service and the PRC.

Competing the Contract Alternative

The Postal Service did not request proposals when accepting the current contract
because it did not want to lose the knowledge and experience gained by the contractor
since the program‘s inception in 1990. According to guidelines outlined in an Office of
Management and Budget (OMB) study,23 the Postal Service could save $4 million
annually24 on EXFC and $1.8 million on Intelligent Mail Accuracy and Performance
System by improving contractor efficiency and reducing costs through competition.25
Because the Postal Service currently is not realizing the cost savings and completing
the transition discussed in its noncompetitive justification, it should solicit offers for the
activity in FY 2014, should an automated alternative not be in place. See Appendix C for
information on the costs savings for competing the contract.

External First-Class Measurement System Planning and Technological
Alternatives

The current service measurement contract relies on costly manual reporting and
recording of test pieces. The Postal Service renewed the contract without competition
and justified the action by stating that the renewal was a 5-year bridge to allow for a
transition from the current manual method to an automated live mail measurement
system. However, the Postal Service has not yet developed a written plan to replace the
manual EXFC process with an automated system.26



23
   Report on Competitive Sourcing Results, FY 2007, May 2008, OMB.
24
   The study found federal agencies saved, on average, $59,000 on logistics-type contracts for every FTE purchased
through competition.
25
   The other studies were too small to produce a reliable cost savings estimate but could still benefit from open
competition.
26
   In a report on a related Postal Service acquisition, the Government Accountability Office (GAO) stated a plan is an
essential document to manage and control the execution of a project. U.S. Postal Service Needs to Strengthen
System Acquisition and Management Capabilities to Improve Its Intelligent Mail Full Service Program (GAO Report
Number GAO-10-145, dated October 2009).


                                                          6
Evaluation of the External First-Class                                                              FF-AR-12-006
 Measurement System


Replacing EXFC was a low priority because both the Postal Service and the PRC were
satisfied with EXFC performance and developing a system for commercial mail
performance measurement took priority. Additionally, managers responsible for EXFC
stated that a complete plan would have been premature because technologies have
only recently matured to the point that the Postal Service can design processes around
them. Without a plan to move to an automated measurement system as intended, the
Postal Service is at risk of incurring additional contract costs to continue the manual
reporting of delivered mail. The Postal Service is 3 years into that 5-year transition
period to an automated system using the Intelligent Mail barcode.27 Further, the Postal
Service currently uses the contract to measure service performance for other types of
mail, including commercial and international First-Class Mail. It should consider the
impact on these other measurement activities when developing its plan.

We believe the Postal Service should develop a formal plan to replace EXFC and other
service performance measurement activities. The plan could include:

    Developing a methodology for collecting deposit and delivery times for measuring all
     market dominant-products.

    Increasing consumer use of Intelligent Mail barcodes on envelopes and
     supplementing sample data with test kits28 until increased barcode use permits
     exclusive use of live mail.

    Creating a sampling plan that satisfies the PRC‘s data requirements for measuring
     all the market-dominant products.

    Communicating process requirements for related procurements such as the
     Intelligent Mail device.29

    Using enhanced visibility from Intelligent Mail barcode data for process
     improvement.

    Adding Intelligent Mail to the Domestic Return Receipt process.

    Identifying Intelligent Mail barcode data field requirements to capture sufficient
     information on the mailpiece, such as the class and shape, as well as a sufficient
     number of unique serial numbers to accommodate the larger population of mail
     using Intelligent Mail barcodes.


27
   Noncompetitive Justification for the Transit Time Measurement System Contract, dated September 29, 2009.
28
   A proposed tool to supplement live mail testing with fabricated pieces when a performance cluster does not contain
sufficient barcoded letters to represent consumers. We anticipate a test kit will be required for imported international
First-Class Mail assuming barcoded envelopes are not available for overseas senders.
29
   This is a handheld computer capable of scanning Intelligent Mail barcodes. The Intelligent Mail barcode appears as
65 vertical ascending and descending lines. The devices currently in the field will need a software upgrade to collect
data using new start- and stop-the-clock event codes and make that data available to other Postal Service systems.
The devices are included in the Intelligent Mail Data Acquisition System program, which is implementing a
standardized hardware and software platform for mobile data collection and transfer.


                                                           7
Evaluation of the External First-Class                                                               FF-AR-12-006
 Measurement System


Developing a formal plan could assist the Postal Service with phasing out the current
service measurement contract and identifying potential cost savings. Further, without a
plan, there is increased risk the new system will not accurately represent the mail,
ensure the integrity of the data, and satisfy PRC requirements.

Using Intelligent Mail Barcode as an Automated Replacement to External First-Class
Measurement System and Other Service Performance Measurement Processes

Implementing an automated replacement to the current EXFC and other service
performance measurement processes using Intelligent Mail depends on developing an
approved process, identifying personnel and budget requirements, and acquiring and
testing any needed new automation. Consequently, the transition requires sufficient
planning for the Postal Service to implement and test the automated replacement
process. Postal Service officials responsible for the EXFC program, however, have not
formally developed and communicated the system‘s requirements for a comprehensive
automated replacement.

The primary challenge to widespread consumer use of the Intelligent Mail barcode is the
inability of consumers to generate and print them on envelopes. We met with
representatives from the Envelope Manufacturers Association, the PRC, and the Postal
Service to discuss solutions. The Envelope Manufacturers Association representative
stated that envelope manufacturers could preprint barcodes with unique identification
numbers on envelopes for consumer use. The Postal Service could provide tracking
data associated with the barcoded envelopes to consumers as an incentive for buying
and using the pre-barcoded envelopes. The Postal Service would apply delivery
address information during mail processing. For imported international mail, the
international service center or Exchange could similarly apply Intelligent Mail barcodes
to mailpieces. If consumers used pre-barcoded envelopes for domestic single-piece and
international First-Class Mail, the Postal Service could capture processing scans within
the existing mail processing infrastructure.

However, the Postal Service would still have to develop sampling programs with the
next Intelligent Mail device to capture the deposit and delivery data for live mail because
data captured only during mail processing cannot fully replace EXFC and other service
performance measurement activities. The Postal Service does not currently have the
infrastructure to capture the same deposit and delivery data30 it obtains using contracted
testers. Enhancements to the hand held scanner are needed to enable the capture of
deposit and delivery data.31 See Appendix C for additional information on the Intelligent
Mail barcode.

Further, using the Intelligent Mail barcode with the hand held scanners as an automated
replacement for EXFC could eliminate a program limitation in the EXFC sample design.
The accuracy of EXFC results on single-piece First-Class Mail depends on the Postal
Service processing all the pieces similarly. The contract requires measuring service

30
     EXFC droppers capture deposit data to start-the-clock and reporters capture delivery data to stop-the-clock.
31
     The Postal Service stated that handheld scanner requirements were developed in response to our audit.


                                                             8
Evaluation of the External First-Class                                                                FF-AR-12-006
 Measurement System


performance using EXFC test pieces mailed from a blue collection box or a lobby
receptacle in some office buildings32 to avoid the identification of droppers33 and
subsequent preferential processing of EXFC mail. The EXFC program only measures
single-piece First-Class Mail originating34 from about 34 percent of potential collection
points and does not represent customer expectations. We do not believe analyzing test
piece mail originating from only about 34 percent of potential collection points meets the
EXFC‘s program objective of measuring service performance. See Appendix C for
additional information on the EXFC sample design.

Other Automation Options

We identified and evaluated other optical-based technologies35 such as microdots,
information-based indicia, quick response codes, watermarks, and wave-based
technologies36 such as radio frequency identification devices and the global positioning
system (GPS). All have limitations, which we discuss further in Appendix C.

Current External First-Class Measurement System Vulnerabilities

While alternatives are being considered for replacement of the current system, current
vulnerabilities can and should be addressed to ensure the EXFC is as effective and
efficient as possible. We identified issues with preferential processing of test mailpieces,
employees improperly involved in inducting and reporting test mail, and sample design
and sample sizes.

Preferential Processing of Sample Pieces

We identified instances where mail entering the mailstream from blue collection boxes
received preferential treatment. We visited one P&DC in each of the seven Postal
Service areas and found three facilities getting preferential treatment:

    We observed employees separating and labeling collection mail coming from deposit
     points to indicate whether it was from a blue collection box.

     o Two of the three facilities received blue box flats37 separated from other flats.

     o A third facility received both blue box letters and blue box flats in separate
       containers.




32
   The contractor only mails test pieces from containers with Postal Service Label 55, Collection Box Pickup Times.
33
   A dropper mails a bundle (up to 40 pieces) of letters for each blue collection box sampled.
34
   The Postal Service measures mail volume but does not collect statistics (such as the volume of mail collected at
blue collection boxes and curbside boxes) by the originating source.
35
   Data from optical-based technologies is typically captured with reflected light such as a camera or laser.
36
   Data from wave-based technologies is captured by obtaining a signal such as a cellular, GPS, or radio signal.
37
   A flat piece of mail is a flexible mailpiece that has exceeded the size of a letter, but the Postal Service does not
require that it be mailed as a parcel.


                                                            9
Evaluation of the External First-Class                                                              FF-AR-12-006
 Measurement System


      The facilities manually sorted blue box flats in order to guard against automation
       mis-sorts that could direct mail to the wrong ZIP Code and negatively affect their
       EXFC scores. Even though automated flat sorting machines save about $45 per
       1,000 pieces processed, plants did not want to risk their EXFC scores with an
       automation missort. Figure 1 shows the manual separation area for blue box flats at
       one of the P&DCs we visited.

                       Figure 1. Manual Separation Area for Blue Box Flats




                    Source: OIG photograph taken November 3, 2011 at a P&DC in the Capital Metro Area.

An OIG EXFC survey of postmasters and station managers38 found that 25 percent of
units reported separating blue box letters from other collection letters and 29 percent
reported separating blue box flats from other collection flats. We observed that plants
did not ordinarily provide preferred processing for this potential EXFC mail because it
was more efficient to begin processing mail as it arrived. However, when plants
experience malfunctioning equipment or high volume and it becomes apparent to
managers that the plant will not be able to process all mail, this separation of measured
mail allows plant staff the opportunity to give preferential treatment to potential EXFC
mail. See Appendix D for additional information on the OIG EXFC survey.

Additionally, 84 percent of the units surveyed39 reported taking extraordinary measures
to deliver late arriving single-piece First-Class Mail. Specifically:

      Thirty-seven percent reported that office staff delivers late arriving mail.

      Thirty-three percent reported that someone delivers late arriving mail to carriers on
       their route.

      Nearly 9 percent reported that carriers who return from their routes go back out to
       deliver late arriving pieces.


38
     Randomly selected survey of post offices, stations, and branches completed January 11, 2012.
39
     This analysis excludes units that do not have delivery carriers.


                                                          10
Evaluation of the External First-Class                                                          FF-AR-12-006
 Measurement System


    Five percent reported that they hold carriers until late arriving mail is ready.

The OIG previously assessed operational efficiency in city delivery operations and
reported $88.2 million in annual savings. The OIG cited late arriving mail as a
contributing factor to unit inefficiency.40

Managers might have made these extra efforts because EXFC data (collected on
single-piece First-Class Mail) were historically part of the National Performance
Assessment, while commercial First-Class Mail was not.41 National Performance
Assessment supports the Pay for Performance program and Performance Evaluation
System. Therefore, the service performance of First-Class Mail affects non-bargaining
employees‘ performance ratings and associated pay increases or bonuses. See Table 4
for National Performance Assessment service goals for First-Class Mail.

                    Table 4. FY 2012 First-Class Mail Minimum Scores for
                         National Performance Assessment Ratings

     Service                 Non-                                          High                Exceptional
    Standard               Contributor            Contributor           Contributor            Contributor
Overnight                    95.45                  96.31                 97.25                   97.46
2-Day                        92.30                  93.62                 95.82                   96.41
3- to-5-Day                  90.85                  92.28                 93.85                   94.21
Source: Postal Service National Performance Assessment website.

The postmaster general has emphasized that units should not prioritize processing or
delivery within a class of mail.42 We reviewed allegations that processing employees
used red trays to identify mail containing EXFC test pieces so those trays could get
preferential treatment over non-red trays. We attempted to substantiate the allegations
by reviewing procedures and performing observations at P&DCs. We often found
First-Class Mail letters placed in red trays. However, we observed that mail handlers did
not have a preference when selecting trays of First-Class Mail to process. Further, we
noted that P&DCs often used red trays or red labels to ensure all mail set for next day
delivery was processed.

Additionally, because the Postal Service added commercial First-Class Mail43 to the
National Performance Assessment, there is no longer a reason to prioritize single-piece
First-Class Mail. A P&DC operations manager indicated that, because of this change,
area management recently terminated a red tray procedure. We found that commercial
First-Class Mail letters were treated the same as single-piece First-Class Mail letters at
all seven P&DCs we visited.

40
   National Assessment of City Delivery Efficiency 2011-Office Performance (Report Number DR-MA-11-002, dated
July 19, 2011).
41
   Effective in FY 2012, the Postal Service added commercial mail to National Performance Assessment
measurement.
42
   Discontinuance of Field Policies on Prioritizing the Processing or Deliver of Mail, dated April 29, 2009.
43
   The National Performance Assessment First-Class Mail score is composite of First-Class single-piece, commercial,
and parcel mail.


                                                        11
Evaluation of the External First-Class                                                                FF-AR-12-006
 Measurement System



Further, as noted in Figure 2, although EXFC scores are not significantly different than
scores from the Intelligent Mail barcode (commercial), customers expressed concerns
about the reliability of EXFC results. Customers appreciate the Intelligent Mail barcode
information because they believe it is more reliable.44 Manual processes and sampled
data provide opportunities for special treatment of mail and ‗gaming‘ of scores.

                              Figure 2. First-Class Mail Service Trend45




     Source: Postal Service Field Operations Performance Measurement website.

Service measurement scores derived from the barcode data provide a broader analysis
as they are based on scanned, not sampled, data and reduce the opportunity for
manipulation. Additionally, Postal Service customers are not concerned solely with
EXFC scores but rather that the Postal Service delivers the mail as promised. Customer
experience or perception indicates that mail delivery does not occur as promised. For
example, media mailers rely on timely delivery of compact (video) discs as part of their
business strategy. The barcode information provides these mailers with a method to
evaluate where the mail delays are and an opportunity to adjust their mailing habits to
avoid delays.



44
   According to Service Performance Measurement-Commercial Mail (Report Number CRR-AR-11-003, dated
September 6, 2011), the Postal Service had issues affecting the reliability and usability of Intelligent Mail barcode
data.
45
   We averaged scores over an 11-week period.


                                                           12
Evaluation of the External First-Class                                                           FF-AR-12-006
 Measurement System


Special processes undermine the integrity of EXFC results and the PRC‘s requirement
for a representative sample. When facilities implement extraordinary processing or
delivery procedures to manage EXFC scores, postage costs may increase for mailers.
For instance, manually processing blue box flats is inefficient and results in increased
mail processing costs. The Postal Service could save $253,000 annually by using the
automated flat sorting machines at the plants we found to be manually processing flats.
See Appendix B for details of the monetary impact. See Appendix D for the information
on the OIG EXFC survey. Further, automated processes can provide customers with
more reliable information in which to help them make better mailing decisions and
reduce the opportunity for score manipulation.

Employee Participation in Induction and Reporting of Test Results

The Postal Service did not modify the contractor‘s tester selection procedures to
prevent Postal Service employees and their family members from participating in the
EXFC program. Currently, the contractor matches addresses of testers with Postal
Service employee addresses quarterly and removes testers when there is a match.
Thus, an employee or family member could participate in the EXFC program for up to
3 months, having access to confidential test mail information, opportunities to affect
EXFC results, and the opportunity to share confidential information.

During FYs 2010 and 2011, the contractor identified and removed 16 Postal Service
employees and six family members (22 testers in total) from the EXFC test group. The
22 tester matches covered each of the three tester categories (one dropper, one return
address tester,46 and 20 reporters47), and at least one tester was located in each of the
seven Postal Service areas.48 In these instances, the dropper received 1,380 test
pieces to mail and the reporters received an average of 47 test pieces each.49
Consequently, these individuals obtained information on 2,325 test pieces, such as
reporter addresses, return address tester addresses, and meter serial numbers that
could identify future test pieces or confidential testers in the program.50

All 22 testers indicated during the application process that neither they nor anyone in
their household worked for the Postal Service.51 The application did not have legal
language recognizing the Postal Service‘s right to take action for false statements. We
referred the matter to the OIG Office of Investigations. However, the Postal Service did
not remove these employees from their positions for failing to disclose that they or their
family members worked for the Postal Service.52 See Appendix A for additional

46
   Return address testers receive return to sender mail.
47
   Reporters are the addressed recipients of the mail from droppers.
48
   The contractor stated eight of the 22 testers were also involved in service measurement performance reviews of
commercial mail (Intelligent Mail Accuracy and Performance System study).
49
   Reporters received between four and 247 test pieces.
50
   A meter serial number associated with the EXFC program is unique to test pieces and could be used to identify
additional test pieces by reviewing the postage indicia.
51
   Sixteen applicants responded using the applicant website, while the remaining six applicants responded to a
telephone operator.
52
   Since the contractor removed them from the test group, 17 employees remain actively employed with the Postal
Service, while three retired, one resigned, and one casual employee reached the appointment limit.


                                                         13
Evaluation of the External First-Class                                      FF-AR-12-006
 Measurement System


information on the EXFC test group. See Appendix C for additional information on
disqualified participants.

Recommendations

We recommend the chief operating officer and executive vice president:

1. Use the External First-Class Measurement System (EXFC) contract to meet
   statutory reporting requirements only and adjust the EXFC sample size accordingly.

2. Develop controls to eliminate the unauthorized special treatment of potential test
   pieces and, as appropriate, take administrative action and make non-compliance
   with processing rules a factor in the unit‘s performance assessment. These controls
   should guard against separating mail by type or collection point or hiring Postal
   Service employees or family members as part of the External First-Class
   Measurement System contract.

We recommend the vice president, Product Information:

3. Develop a comprehensive plan to replace the current External First-Class
   Measurement System and other service performance measurement activities with
   automated processes utilizing the Postal Service‘s Intelligent Mail and other
   technologies for induction and delivery analysis. If an automated solution cannot be
   developed by the end of the current service measurement contract, the plan should
   consider other options, such as competing the next contract award or staffing these
   activities with Postal Service or other federal government personnel.

Management’s Comments

Management disagreed with the finding related to EXFC reporting requirements and
cost-reduction alternatives and the associated recommendation 1, but provided an
alternative action that could reduce the sample size. Further, management agreed with
the finding related to EXFC vulnerabilities but neither agreed nor disagreed with the
associated recommendation 2. Finally, management agreed with the finding related to
EXFC planning and technological alternatives and the associated recommendation 3.

Management disagreed with recommendation 1 to use the EXFC contract to meet
statutory requirements only and reduce the sample size accordingly. Management
stated they did not have an internal system to provide end-to-end performance
measurement and used EXFC to gain information on retail letters, cards, and flats to
drive service improvements. They expressed concern over reducing the EXFC sample
size because of the potential impact it may have on service performance when scrutiny
is high. Management identified alternative systems that provide service performance
information but also identified system limitations with those alternatives regarding
measuring the complete induction-to-delivery process. Additionally, management stated
the Postal Service is required to measure service in virtually all 3-Digit ZIP Code areas,



                                            14
Evaluation of the External First-Class                                        FF-AR-12-006
 Measurement System


making reductions to the sample size less feasible than when fewer ZIP Codes are in
the measurement system.

The Postal Service acknowledged making adjustments to sample sizes in Quarter 4 of
FY 2012 when they reduced the overnight service standard. However, the Postal
Service allocated those sample pieces from the overnight category to the 2-Day and
3- to 5-Day categories, thus there was not a reduction in the overall sample size.

Finally, management stated there was a regulatory requirement to report on First-Class
Mail Flats performance on a quarterly basis and a reduction in sample size of the
magnitude suggested will negatively affect the precision. However, management agreed
to work with the contractor to assess the EXFC sample design. They obtained a
simulation model to assess the impact of design changes on precision levels, ZIP Code
and district coverage, as well as the ability to meet the various sample design
requirements.

Regarding recommendation 2, management stated they have administrative controls in
place to guard against the unauthorized special treatment of test pieces. They identified
procedures in place for reporting the identification of test mail or participants in the test
mail programs. Management handles allegations of failure to comply with the policies
though the investigation process and takes corrective action in accordance with
provisions in the Employee Relations Manual.

Management agreed that hiring Postal Service employees or family members as part of
the EXFC contract creates a potential for bias and has worked with the contractor to
improve on the administrative controls. In February 2012, the contractor modified the
Address Verification Survey that goes out to reporters every 6 months. In March 2012,
the contractor modified the screening questions to reduce the likelihood that a former
Postal Service employee would share EXFC information with the Postal Service.
Beginning in May 2012, employees do address checks monthly versus quarterly.

Management also stated they would consult with their counsel on the recommendation
to adopt legal language into the screening process. The Postal Service believes a
balanced approach is prudent, given the voluntary nature of the program.

Regarding recommendation 3, management agreed with the finding and
recommendation. Management stated they are working on a plan to consolidate all
visibility data into one system for service performance measurement, reporting and
diagnostic analysis for both induction and delivery analysis. Management expects to
finalize the plan by May 31, 2013. If they are unable to implement the plan prior to
expiration of the current contract, management intends to commercially compete the
contract. See Appendix E for management‘s comments in their entirety.




                                             15
Evaluation of the External First-Class                                    FF-AR-12-006
 Measurement System



Evaluation of Management’s Comments

The OIG considers management‘s comments responsive to recommendation 3.
However, we do not consider management's comments to be responsive to
recommendations 1 and 2 but do not plan to pursue the issue through the formal audit
resolution process. Lastly, management neither agreed nor disagreed with the monetary
impact.

Evaluation of Management Comments to Recommendation 1

We found the Postal Service could reduce contract costs by supplementing data from a
reduced EXFC sample with data from other internal systems. Management stated these
systems do not provide end-to-end measurement and the data has limitations. As an
example, management stated that Collection Point Management System data does not
measure whether the carrier removed all mail from a blue collection box. While
management is correct, neither does EXFC. EXFC just measures whether the carrier
removed test pieces from a collection box. The Collection Point Management System
monitors whether a carrier scans a barcode on the inside of a collection box while
picking up the mail. While we do not believe a carrier would remove some, but not all,
pieces during mail pick-up, we do believe the use of additional EXFC test pieces to
measure this represents an example of where management could reduce EXFC
sampling by using other, available management information.

Additionally, management stated that reducing the sample size would negatively impact
the precision level of the statistical projection of results and this could result in an
undetected decline in service. Management is correct that the precision of statistically
projected results decreases with decreases in the sample size and increases with an
increased sample size. During our audit, plant managers stated they could rely on Mail
History Tracking System data for identifying short-term processing issues and detect
any decline in service. Therefore, we believe the Postal Service has an opportunity to
reduce costs by reducing the EXFC sample and supplementing EXFC data with Mail
History Tracking System data for short-term analysis.

In reducing the sample size, management stated that precision for measuring
First-Class Mail flats would be negatively impacted because the sample of flats is
already small. The sample of flat pieces is approximately 7 percent of the total EXFC
sample because flats volume is 7 percent of total mail volume. Management insists that
this be equal. We believe the Postal Service could still reduce the overall sample and
keep the number of flats in the sample the same. Further, we did not see any merit in
management's requirement to sample a proportional number of flats to the overall
volume.

Lastly, management conceded that they are reviewing options for changing the sample
with a contractor-developed model. While management appears to be open to reducing
the sample size, we believe this effort is redundant. In May 2009, the contractor



                                           16
Evaluation of the External First-Class                                    FF-AR-12-006
 Measurement System


proposed that the Postal Service could reduce the sample by 417,000 pieces (12
percent), save approximately $1 million annually, and meet the various sample design
requirements. We do not know why the Postal Service did not adopt the contractor‘s
proposal.

Evaluation of Management Comments to Recommendation 2

The Postal Service referred to existing procedures and policy in their comments to
recommendation 2. However, management‘s response does not address the difference
between written procedures and the local practices discussed in this report.
Management said field policies intended to prioritize processing or delivery within a
class of mail, having the same delivery expectation, are no longer permitted. During our
audit, we found mail processing employees were either unfamiliar with the policy or had
other, incorrect interpretations of the policy. Some managers even stated that manual
processing was directly related to the EXFC scores because plant employees do not
trust the automation equipment to do a good job. Since employees are looking to
improve that which is measured, the Postal Service should make non-compliance with
processing rules, such as the manual processing of flats, a factor in the unit's
performance assessment.

Regarding the employee address checks, management made the change to require
monthly versus quarterly checks in May 2012. While this will enhance the procedures to
detect Postal Service employees who have falsified the application, it will not prevent
employees from becoming EXFC testers, thereby gaining access to EXFC information.
The Postal Service should compare applications to the employee address file before
sending the applicant test pieces. Since each test piece contains the name and address
of a confidential tester, sending only a few test pieces to a Postal Service employee
warrants the removal of additional testers from the program.




                                           17
Evaluation of the External First-Class                                                     FF-AR-12-006
 Measurement System


                               Appendix A: Additional Information

Background

Since 1990, the Postal Service has contracted to measure First-Class Mail service
performance independently and objectively. EXFC is an end-to-end performance
measurement system. It measures single-piece First-Class Mail performance from the
time mail enters the mailstream until the Postal Service delivers it to a household, small
business, or Post Office Box.

The objective of the EXFC program is to measure service performance from the
customer‘s perspective by comparing test mailpiece delivery times to delivery
standards. EXFC data also satisfy part of the Postal Act of 2006 requirement to report
performance for market-dominant products to the PRC. Internally, the Postal Service
uses the data to support the National Performance Assessment and diagnose delivery
problems at plants, delivery units and, in some instances, on carrier routes.

To measure service performance for market-dominant products, the Postal Service
uses a combination of testers and data collected from mail processing to identify transit
times for its products. The wide field of view camera is the most common tool for
collecting mail processing data and can analyze barcodes and information-based
indicia. With the test groups, droppers report to the contractor‘s call center when they
mail bundles of test pieces. Reporters acknowledge receipt of the test pieces to the call
center or through the contractor‘s website. The Intelligent Mail Accuracy and
Performance System reporters do this with a hand held scanner plugged into their
personal computers. The contractor designed the sample pieces to blend in with the
rest of the mail so the Postal Service will not recognize them as sample pieces and will
treat them the same as any other piece of mail for processing, transportation, and
delivery. The test group has three categories of testers:

    Droppers who induct the sample pieces into the blue collection boxes.

    Reporters who receive the sample pieces.

    Return address testers who account for mail that is undeliverable to the intended
     address.

As of March 2012, the Postal Service stationed 1,292 droppers, 17,026 reporters, and
2,640 return address testers throughout the country. About 8,794 reporters participate in
both EXFC and Intelligent Mail Accuracy and Performance System activities. Further,
EXFC reporters receive international mail from 60 overseas droppers. The Postal
Service received about 2.9 million test pieces from testers in the performance clusters
or districts, during FY 2011. In the Intelligent Mail Accuracy and Performance System
study, testers scanned 8.9 million pieces in FY 2011.53

53
 IBM Intelligent Mail Accuracy and Performance System Data Analysis Quarterly Summary Reports, FY 2011,
Quarters 1, 2, 3, and 4.


                                                     18
Evaluation of the External First-Class                                                        FF-AR-12-006
 Measurement System



EXFC provides quarterly estimates of single-piece First-Class Mail service performance
for 67 performance clusters, encompassing 892 3-digit ZIP Codes, from their overnight,
2-day, and 3- to-5 day service standard areas. This network represents the nation's
single-piece First-Class stamped and metered mail volume. Table 5 shows the national
service performance scores for FYs 2010 and 2011.

      Table 5. EXFC National Delivery Scores by Quarter for FYs 2010 and 2011


      Quarter                   Overnight54                  2-Day55                    3-to-5-Day56
 FY 2010 Quarter 1               96.91%                      92.48%                        89.14%
 FY 2010 Quarter 2               96.09%                      92.79%                        90.41%
 FY 2010 Quarter 3               96.79%                      94.85%                        93.41%
 FY 2010 Quarter 4               96.69%                      94.90%                        93.69%
 FY 2011 Quarter 1               96.05%                      92.57%                        89.25%
 FY 2011 Quarter 2               96.14%                      92.58%                        89.75%
 FY 2011 Quarter 3               96.65%                      94.87%                        93.35%
 FY 2011 Quarter 4               96.44%                      94.14%                        92.60%
Source: EXFC Performance Reports. USPS.com provides additional delivery scores.

Objective, Scope, and Methodology

Our objective was to evaluate current operations and plans for the EXFC system to
determine whether it is the best value for the Postal Service in terms of cost, integrity,
and usefulness. To accomplish this objective, we performed the following activities:

    Analyzed the EXFC sampling methodology that included statistical assumptions
     affecting sample size and precision levels.

    Reviewed statements of work, modifications, and the non-competitive justification for
     Contract Number 102592-02-B-0343, Transit Time Measurement System.

    Discussed plans for future EXFC services with Postal Service officials.

    Evaluated alternative technologies and conceptual frameworks for future use in
     EXFC. We identified stakeholder requirements concerning the future of EXFC.

    Reviewed the contractor‘s procedures for protecting the integrity and confidentiality
     of the EXFC program.

    Reviewed collection mail induction procedures and observed cancellation and mail
     processing at seven plants, one in each of the seven Postal Service areas.

54
   The FY 2010 and 2011 Overnight goals were 96.60 and 96.65 percent, respectively.
55
   The FY 2010 and 2011 2-Day goals were 94.10 and 94.15 percent, respectively.
56
   The FY 2010 and 2011 3- to-5-Day goals were 92.80 and 92.85 percent, respectively.


                                                       19
     Evaluation of the External First-Class                                             FF-AR-12-006
      Measurement System



        Conducted a nationwide survey of randomly selected postmasters and station
         managers from December 23, 2011, to January 11, 2012, to determine whether post
         offices treat all collection mail equally. See Appendix D for information on the survey.

     We conducted this performance audit from June 2011 through September 2012 in
     accordance with generally accepted government auditing standards and included such
     tests of internal controls as we considered necessary under the circumstances. Those
     standards require that we plan and perform the audit to obtain sufficient, appropriate
     evidence to provide a reasonable basis for our findings and conclusions based on our
     audit objective. We believe that the evidence obtained provides a reasonable basis for
     our findings and conclusions based on our audit objective. We discussed our
     observations and conclusions with management on July 25, 2012, and included their
     comments where appropriate.

     We assessed the reliability of EXFC data by reviewing integrity procedures, interviewing
     Postal Service officials knowledgeable about the data. We modeled the statistical
     assumptions to evaluate the statistical precision of the data. We determined that the
     data were sufficiently reliable for the purposes of this report.

     Prior Audit Coverage

                                               Final
                         Report               Report   Monetary
  Report Title           Number                Date     Impact              Report Results
Processing of         NO-MA-11-002            3/1/11   $188,170   Manual processing of collection box flats
Collection Box                                                    was part of a district-wide program to
Flats in the                                                      improve EXFC service scores.
Philadelphia                                                      Management agreed with the findings
Metropolitan                                                      and recommendation to process
Customer Service                                                  collection box flats in accordance with
District                                                          procedures.




                                                        20
Evaluation of the External First-Class                                                               FF-AR-12-006
 Measurement System


                                     Appendix B: Monetary Impacts

                                               Monetary Impacts

                                                                       Multiyear                   Annual
 Recommendation    Impact Category                                     Savings                     Savings
        1       Funds Put to Better                                    $11,365,403                   $3,820,362
                Use57
        2       Funds Put to Better Use                                    505,143                        252,571
      Total                                                            $11,870,546                     $4,072,933

EXFC Testing

When computing the monetary impact for reducing the EXFC sample size, we first
determined an acceptable quarterly precision that could increase the risk within
tolerable levels and reduce the sample size by 1.3 million pieces. We then used pricing
and labor data obtained from the contractor to determine the savings associated with
reducing the sample size by 1.3 million pieces. We determined the Postal Service could
save about $3 for every piece reduced. The Postal Service could realize an annual cost
savings of $3.8 million or $11.4 million over the 3 remaining years of the contract. See
Appendix C for additional information on precision levels.

Manual Processing

We calculated the number of hours it would take to process blue box flats volumes in
both the manual and the automated flat sorting machine environment for each of the
three sites where we observed plant personnel manually sorting blue box flats. We
divided the annual blue box flat volume by productivity factors for each process, for
each site. The difference between the number of manual hours calculated and
automated flat sorting machine hours calculated was determined to be monetary
impact, funds put to better use. We related $398,671 of the monetary impact to three
eliminated positions projected 10 years forward, using 1,750 hours as a FTE and the
salary and fringe benefit rate for a Level 6 clerk.58 We limited the claim to 2 years by
multiplying the 10-year net present value by 2/10ths. Additionally, we calculated
$106,472 in overtime avoided for the remaining hours projected 2 years forward using
the average clerk overtime rate from FY 2011 for a total monetary impact of $505,143.
We calculated annual savings averaging $252,571. We adjusted our projections as
appropriate using the Postal Service calculated workhour escalation rate59 and the


57
   Funds that could be used more efficiently by implementing recommended actions.
58
   The Postal Service publishes salary and fringe benefit rates annually for clerk craft wage rates for Postal Service
level 05, 06, and 07 employees. We chose to calculate monetary impact using the Postal Service 06 mid-level pay
range.
59
   The Postal Service calculates and publishes factors for estimating future labor costs. On November 23, 2011, the
Decision Analysis Report Factors/Cost of Capital/New Facilities StartUp Costs Update identified a labor rate
escalation factor of 1.8 percent as the average annual change for the 10-year period beginning FY 2012 through
2021.


                                                          21
Evaluation of the External First-Class                                                              FF-AR-12-006
 Measurement System


present value calculation rate60 from the Decision Analysis Report Factors/Cost of
Capital/New Facilities StartUp Costs Update letter dated November 23, 2011.




60
  The Postal Service calculates and publishes a cost of capital discount rate for use in the determination of present
values for decision analysis. On November 23, 2011, the Decision Analysis Report Factors/Cost of Capital/New
Facilities Start-Up Costs Update decreased the rate to 2.6 percent.


                                                          22
Evaluation of the External First-Class                                                         FF-AR-12-006
 Measurement System


                          Appendix C. Additional Finding Information

Evaluating the Sample Size

Since new technologies became available to help plan, execute, and evaluate its
internal processes, the Postal Service could re-evaluate its EXFC program sample size
to meet the program‘s original reporting requirements.61 Specifically, by increasing the
risk of data inaccuracies while staying within tolerable levels, the Postal Service could
reduce the sample size by 1.3 million pieces.

The contractor previously advised the Postal Service it could reduce the sample size to
save money and still be statistically relevant; however, the Postal Service chose not to
reduce the sample size because Postal Service managers wanted the data to plan,
execute, and evaluate other processes not specifically related to service performance
measurement. We found the Postal Service could adjust62 the average quarterly
precision63 from +/- 0.8 percent64 to +/- 1.5 percent to reduce the sample size. Adjusting
the quarterly precision to +/- 1.5 percent would result in an annual precision within +/-
1.0 percent.65 (The Postal Service would need to coordinate any revised sample sizes,
and associated precision levels, with the PRC.) Table 6 provides details of the annual
cost savings using precision levels of 1.5 and 2 percent.

                    Table 6. Reduced Sample Size Annual Costs Savings

            Quarterly              Annual Sample Percentage                   Cost Savings From
          Performance              Size Reduction Reduction                    Reduced Pieces
        Cluster Precision                (in millions)                               (in millions)
          0.8%(current)                       0                 0%                   $         0
              1.5%                           1.3                37%                  $       3.8
              2.0%                           2.1                62%                  $       6.3
      Source: Sample size reduction figures based on contractor data.

Postal Service managers wanted a larger sample than statistically needed, not only to
satisfy the PRC‘s requirements66 but also to produce data to plan, execute, and
evaluate internal Postal Service operations. Historically, the Postal Service relied
on EXFC data to drive service improvements through the National Performance
Assessment when there were no other measurement systems. Currently the Postal
Service uses the Mail History Tracking System and the Intelligent Mail Accuracy and
Performance System to measure mail flow analysis and service performance. In the
OIG EXFC survey, 52 percent of surveyed postmasters and station managers stated

61
   Examples of new technologies include Intelligent Mail barcode, the Mail History Tracking System, and the
Intelligent Mail Accuracy and Performance System.
62
   Increasing the precision number has the effect of decreasing the accuracy of the results.
63
   The ability of a measurement to be consistently reproduced.
64
   +/- 0.8 percent was EXFCs FY 2011 average quarterly precision level.
65
   The International Post Corporations UNEX Measurement System, used to measure international service standards,
uses an annual precision level of about +/- 5 percent. Officials at the PRC stated that 5 percent was too high for
EXFC but would be willing to look at alternatives.
66
   Postal Act of 2006, Section 3652.


                                                         23
Evaluation of the External First-Class                                                             FF-AR-12-006
 Measurement System


that the EXFC program is no longer a good value for the Postal Service in view of the
new technologies and systems the Postal Service has fielded. See Appendix D for
survey results.

The Postal Service risks the confidentiality of the program with the large sample size. In
the last quarter of FY 2011, 109 confidentiality breaches67 occurred, resulting in the
cancellation of 485 test pieces and the removal of 300 testers.68 Currently, each
reporter receives about four test pieces per week and a dropper deposits one to two
bundles of mail (up to 40 pieces per bundle) into a collection box each week. The size
and frequency of the bundles deposited into collection boxes increases the likelihood of
test piece identification by Postal Service employees. A smaller, more discreet sample
would save money and protect the confidentiality of the system.

Competing the Contract

The Postal Service could save $4 million annually on EXFC and $1.8 million on
Intelligent Mail Accuracy and Performance System by improving contractor efficiency
and reducing costs through competition. See Figure 3 for potential savings from
competition by activity.69

                   Figure 3. Popular Activities for Competition and Annual
                                   Gross Savings per FTE




                                              Popular Activities

          Source: OMB study 2007.



67
   Exposing sample information such as dropper identification or damaged, opened, or identified test pieces results in
a confidentiality breach.
68
   It costs the Postal Service about $234,000 a year to recruit and replace removed testers.
69
   We assumed EXFC and the Intelligent Mail Accuracy and Performance System activity are logistic-type studies
and, therefore, calculated $5.8 million in potential savings ($59,000 for the 99 FTE positions on the contract less a
transition cost).


                                                          24
Evaluation of the External First-Class                                                              FF-AR-12-006
 Measurement System


The Postal Service stated in its non-competitive justification for EXFC that using the
incumbent vendor for a 5-year transition period would result in opportunities for reduced
training and administrative costs and overlapping structures as it moved from the
current EXFC process to using Intelligent Mail barcode technology. However, the Postal
Service has not taken steps to facilitate the transition, such as reducing the amount of
work on the contract, requesting technical proposals from the contractor or the
commercial sector, or conducting a pilot study.

Evaluating Alternatives and Planning

The Postal Service developed a strategy70 to obtain commercial mail processing
information by placing information-rich barcodes on all mailpieces and deploying
infrastructure that enables end-to-end visibility of the mail. The strategy, however,
focused on commercial mailers and, as a result, did not include any enhancements to
that process for single-piece First-Class Mail measured by EXFC.

Commercial mail service measurement depends on mailer participation in Full-Service
Intelligent Mail barcode.71 Mail processed through the Seamless Acceptance Service
Performance System72 starts the service measurement process by sending daily,
scanned data to the Intelligent Mail Accuracy and Performance System.73 The scans
identify the time between the last scan a mailpiece passed through processing
equipment and delivery of the mailpiece.74 This process, though, requires about 11,000
testers that use scanners to record the delivery time of the commercial mail. Currently,
about 8,800 Intelligent Mail testers are also EXFC testers.

The Full-Service Intelligent Mail barcode appears as 65 vertical ascending and
descending lines. When decoded, the barcode offers five data fields totaling 31 digits of
information. The Postal Service offers two versions of the barcode for Full-Service
commercial mailer use — the 6-digit mailer identification and the 9-digit mailer
identification. See Figure 4 for the Full-Service Intelligent Mail barcodes.




70
   USPS Intelligent Mail Vision, Revision 3.0, November 2010.
71
   Full-service customers have agreed to the mailing business rules, such as the use of eDoc, inclusion of an 11-digit
ZIP Code in their Intelligent Mail barcodes, and using unique Intelligent Mail barcodes over a period of 45 days to
receive discount postage.
72
   The Seamless Acceptance Service Performance System measures data from Intelligent Mail barcode scans and
associates the scans with mailer and customer information.
73
   The Postal Service refers to this measurement as ‗start-the-clock.‘ Mail is scanned upon acceptance at the facility.
74
   The Postal Service refers to this measurement as the ‗last-mile‘ or ‗stop-the-clock.‘


                                                          25
Evaluation of the External First-Class                                                                                    FF-AR-12-006
 Measurement System




                                             Figure 4. Full-Service Intelligent Mail
                                                          barcodes75


     Intelligent Mail barcode (for letters and flats): 6- and 9-Digit Mailer Identifications
 1      2   3    4    5    6   7      8     9       10 11 12 13 14 15   16   17   18   19    20   21 22 23 24 25 26 27 28 29             30   31
 Barcode    Service Type
  ID (2N)      ID (3N)             Mailer ID (6N)                Serial Number (9N)                       ZIP Code ( 0, 5, 9, or 11N )

 1      2   3    4    5    6   7      8     9       10 11 12 13 14 15   16   17   18   19    20   21 22 23 24 25 26 27 28 29             30   31

 Barcode    Service Type
  ID (2N)      ID (3N)                    Mailer ID (9N)                Serial Number (6N)                ZIP Code ( 0, 5, 9, or 11N )
Source: USPS Intelligent Mail barcode Guide for Mail Processing, Version 3, June 2008.

The difference between the two barcodes is the number of unique serial numbers
available per service type. For mailers using 9-digit mailer identification, there are
1 million unique serial numbers for each service type. For mailers using 6-digit mailer
identification, there are 1 billion unique serial numbers. Consequently, larger mailers
use 6-digit mailer identification. The Postal Service allows commercial mailers to repeat
serial numbers after 45 days.

The Postal Service could modify the Full-Service commercial mail barcode to work for
single-piece First-Class Mail. We did not think it would be feasible for the Postal Service
to issue a mailer identification to each single-piece First-Class Mail customer. However,
if envelope manufacturers sold pre-barcoded envelopes in stores, barcodes would need
to be unique for more than 45 days. Thus, more barcodes would be required. For
manufacturers, the Postal Service could use combinations of the barcode identification,
service type identifier, mailer identification, and serial number to provide trillions of
unique barcodes for tracking purposes.76 The Postal Service could pass the tracking
and delivery data to customers as an incentive for buying pre-barcoded envelopes.
While commercial mail customers get a discount for applying unique barcodes with
delivery point information, the Postal Service could simply add free tracking as an
incentive for using First-Class Mail. The incentive for the Postal Service would be
getting data for analyzing and improving service performance.

However, data captured only during mail processing cannot replace EXFC and other
service performance measurement activities. The contractor stated that, in its current
pricing proposal, significant changes to the scope of EXFC or discontinuation of the
program would have a significant impact on its ability to conduct the Intelligent Mail
measurement program. Additionally, other studies, such as the International Mail

75
   The barcode identifies the presort makeup. The service type identifies the class of mail or automation rate discount.
The mailer identification identifies the mail owner or agent. The serial number uniquely identifies the mailpiece. The
routing ZIP Code is the 5-, 9-, or 11-digit designating ZIP Code. This field may also be blank (0-digit ZIP Code
information).
76
   We assumed the Postal Service would need enough unique barcodes to track at least the annual single-piece
First-Class Mail volume of about 26 billion pieces.


                                                                        26
Evaluation of the External First-Class                                                            FF-AR-12-006
 Measurement System


Measurement System77 and Return Receipt,78 also rely on EXFC reporters.
Consequently, the Postal Service must develop other processes. For example,
implementation of the system depends on the acquisition of the next hand held scanner,
including new tracking capabilities and communication processes. Postal Service
officials indicated they could incorporate a sampling program into the next Intelligent
Mail device to record data for a sample of mail picked up or delivered by letter carriers.
Assuming the device captured the appropriate location and sample data, this process
would be less vulnerable to manipulation than the current EXFC process. Measuring
live mail rather than test pieces reduces the risk Postal Service employees will identify
the test pieces and provide preferential treatment. Lastly, measuring live mail could be
beneficial to the other service performance measurement studies.

For example, if the Postal Service placed unique barcodes on PS Form 3811, it could
track the cards on automation equipment and scan the cards at signature and delivery.
Additionally, if the next Intelligent Mail device had global positioning technology, the
device could also capture location data associated with scanned letters for integrity
purposes. Management discussed concepts that could close gaps in the current
infrastructure such as geo-fencing79 and the Informed Visibility system80, but they do not
have a comprehensive plan that addresses all PRC concerns. As a result, acquisition of
the next scanner is at risk of not being available to assist in automating the collection of
delivery data. Additionally, the Postal Service might need to extend and fund the service
measurement contract at $41 million per year starting in FY 2015 until the Postal
Service can implement a replacement process.

Further, as noted in Figure 5, the EXFC program only measures single-piece First-Class
Mail originating from about 34 percent of potential collection points and does not
represent customer expectations. For example, a customer taking his or her letter into
the Post Office or using his or her curbside mailbox would not have his or her service
measured. Rather than the contractor testing these locations, the Postal Service
assumes that single-piece First-Class Mail from all locations (for example, blue
collection boxes, curbside boxes, and Post Office Box™ lobbies) receive the same
treatment for collection and dispatch. That assumption may or may not be true.
Customers have other options for mailing letters that are not included in the
measurement process.




77
   The International Mail Measurement System only measures the domestic leg between the sender or receiver and
the international service center or Exchange. For this study, 60 overseas testers send and receive test pieces from
EXFC testers.
78
   This study measures the on-time delivery and completion of Postal Service (PS) Form 3811, Domestic Return
Receipt, aka ―Green Card.‖ In this study, 1,900 EXFC reporters became Signature Reporters and another 1,900
became acceptance reporters.
79
   Geo-fencing is a proposed capability for the next handheld scanner device to use GPS data to prompt letter
carriers to scan mailpieces for service performance measurement.
80
   A proposed system that combines mail-tracking data for all mail classes into one system.


                                                         27
Evaluation of the External First-Class                                                             FF-AR-12-006
 Measurement System




                           Figure 5. Comparison of EXFC Mailflow to
                     All Other Single-Piece First-Class Collection Points81


        EXFC Blue                    Carrier                   Other Blue               Post Offices &
        Collection Boxes             Routes                    Collection Boxes         Business Mail Units




           161,000 (34%)              231,000 (48%)               54,000 (11%)               32,000 (7%)




              EXFC Droppers                               Business and Residential Customers



 Source: Data collected from the contractor, Collection Point Management System, and Postal Facts.

New Technologies

Optical-based technologies. We concluded that optical technologies other than the
Intelligent Mail barcode would be conspicuous on mail and would have the same
deposit and delivery limitations as the Intelligent Mail barcode. For the measurement
tool not to be conspicuous, every mailpiece would have to be similarly marked. As an
example, the Postal Service could redesign the postage and replace postage stamps
with a unique quick response code similar to how the Postal Service of Croatia tracks
mail. However, this would be a major change as stamps are important to the Postal
Service‘s heritage and brand. Another alternative would be to keep the current postage
stamp designs and add a unique barcode to each of the 21 billion stamps produced
each year.82 However, quick response codes or barcodes could not accomplish
anything more than the current Intelligent Mail barcode technology could and would
require hardware and software upgrades to the current processing machines.


81
   Carrier routes collect mail from 151 million delivery points such as residences or commercial offices. Additionally,
other blue collection boxes are not included in the EXFC sample because the box‘s location is not discreet enough for
the dropper to deposit test pieces.
82
   The Postal Service produced 21,193,217,107 stamps in FY 2011.


                                                          28
Evaluation of the External First-Class                                                   FF-AR-12-006
 Measurement System


Additionally, these alternatives require someone to scan mailpieces upon deposit and
delivery to measure end-to-end performance.

Wave-based technologies. Wave-based technologies cannot capture all the deposit and
delivery data needed by the Postal Service. These technologies are often limited where
signals cannot be obtained such as cellular dead zones and office buildings. Further,
technologies such as GPS are not practical as a test piece, because the devices are
expensive and someone would need to mail the devices back to the Postal Service. We
noted foreign posts such as Royal Mail place radio frequency identification transponders
in mailpieces and place readers at mail processing gateways. This tells Royal Mail
when mailpieces enter processing plants. Additionally, this process still relies on a test
group to obtain deposit and delivery data. A Royal Mail official stated the agency relies
on this technology because Royal Mail manually sorts 15 to 20 percent of its mail.
Postal Service management did not have a cost estimate for employing a nationwide
receiver network but stated that individual units cost at least $1,000 each and had a
read rate of only 80 percent. Assuming domestic mailpieces were already equipped with
radio frequency identification transponders, installing readers in a way that represents
151 million delivery points might not be cost effective. Further, customers could
construe installing portable receivers on residential mailboxes as an intrusion on
privacy.

Cost of Measuring Overnight Delivery

In December 2011, the Postal Service filed a request with the PRC for an advisory
opinion regarding the removal of the overnight service standard. The PRC expects to
complete the advisory opinion in late FY 2012. Without the overnight service standard,
the Postal Service could obtain savings by not measuring overnight service
performance for single-piece First-Class Mail. Table 7 illustrates the annual cost savings
associated with the Postal Service no longer measuring overnight service performance.

             Table 7. Removal of Overnight Test Pieces Annual Costs Savings83

                        Annual Sample                              Cost Savings From
                        Size Reduction             Percent          Reduced Pieces
                         (In millions)            Reduction           (In millions)
                              1.6                   46%                   $4.7
                       Source: Sample size reduction figures based on contractor data.

Removing the overnight standard will not affect the other measurement categories. The
sample for the 2-day standard had an annual precision of +/- 0.5 percent. The Postal
Service would not need to increase the 2-day sample size, although the population
would increase, because the population of mail is so large that changes to population
size are not relevant to the sample size.



83
     Sample size reduction figures based on contractor data.


                                                           29
Evaluation of the External First-Class                                               FF-AR-12-006
 Measurement System



Disqualified Participants

The Postal Service did not modify the contractor‘s tester selection procedures to
prevent Postal Service employees and their family members from participating in the
EXFC program. To become a tester, individuals can apply online or by telephone by
confirming study participation interest, providing contact information, and answering
12 screening questions, including the following:

        Do you or does anyone in your household or immediate family work
        for the U.S. Postal Service or another mail carrier such as FedEx,
        DHL, or UPS?

The questionnaire, though, did not have legal language recognizing the Postal Service‘s
right to take action for false statements. For example, the contractor could have
included the following:

        Applicants are required to abide by federal laws and regulations when
        applying to be a tester in the EXFC program. The EXFC program is an
        official function of the U.S. Postal Service. Administration of the EXFC,
        which includes the application process, is a matter that falls within the
        jurisdiction of the Postal Service. The Postal Service has the authority to
        take action against applicants who provide false information on this
        application. The furnishing of false information on this application violates
        Title 18 of the U.S. Code, and may subject the applicant to criminal
        penalties.

At least one tester was disqualified for being an employee or family member in each of
the seven Postal Service areas. Figure 6 displays the area locations of the disqualified
participants.

                      Figure 6. Disqualified Participants by Postal Area




                 Source: Disqualified participant data provided by the contractor.



                                                         30
Evaluation of the External First-Class                                                             FF-AR-12-006
 Measurement System



The Postal Service was aware that some employees and family members were able to
participate in the test group for a limited time but believed the contractor‘s controls were
sufficient to protect program integrity. The contractor is required to verify the testers‘
application information only after accepting them into the program and maintained it
needed the testers in place for testing, so it cannot delay in recruiting individuals.84 To
identify Postal Service employees or their family members, the contractor matches
addresses of testers with employee addresses quarterly and removes testers when
there is a match. In the OIG survey on EXFC, 10 percent of the units indicated they
have identified test pieces in the last 3 years by reviewing tester addresses, meter serial
numbers, and packaging. See Appendix D for information on the OIG EXFC survey.

While the contractor does not have any means for determining whether employees from
other commercial carriers are in the test group, the contractor compares all reporters to
peers in the same delivery area85 and performs other quality checks, such as bundle
monitoring86 and dropper observations,87 to protect the data. If a reporter‘s results differ
from those of his or her peers, the contractor investigates and removes the reporter as
necessary. Assuming another carrier‘s employee was to sabotage the results, the
contractor would take the appropriate action. Based on these additional procedures, we
believe the contractor‘s procedures are sufficient to identify employees of other carriers.




84
   The contractor constantly replaces testers. In FY 2011, the contractor replaced 6,100 testers.
85
   The contractor assumes two reporters in the same area would report similar results.
86
   The contractor investigates when most mailpieces from the same bundle become late.
87
   The contractor and the contract officer representative perform observations of droppers to obtain assurance that
droppers follow procedures and report activity properly.


                                                         31
Evaluation of the External First-Class                                                         FF-AR-12-006
 Measurement System



             Appendix D. External First-Class Measurement System Survey

Survey Methodology

We used a survey to gather data for our report. Our goal was to achieve, at most,
7 percent precision in a 95-percent confidence interval for each question. To accomplish
this, we selected a simple random sample of postal units and sent our survey tool to
each of the 400 postal units in our sample. From the sample, 275 responded. Acting
under the assumption that the units that did not respond are not significantly different
from the ones that did, we then projected our survey results to the universe of 28,353
units from which we selected the sample. Using the statistical program analysis tool, we
generated a 95-percent confidence interval for each question to provide both an
estimate and degree of accuracy. We met our goal of, at most, 7 percent precision on
every question and provided our results in this report.

Collections and Dispatch

Does your office make separations to collection mail before dispatch to the
plant?

Yes 91.97%
No   8.03%

Describe how the office separates the mail (check all that apply).88

 Letters from flats                                                             89.05%
 Blue box letters from lobby and carrier                                        25.18%
  collected letters
 Blue box flats from lobby and carrier                                          29.20%
  collected flats
 Stamped mail from metered mail                                                 48.18%
 Local destinating mail from mixed states                                       26.28%
  mail
 Other                                                                          20.44%

Based on the survey, we estimated 7,140 units were separating blue box letters from
other letters and 8,278 units were separating blue box flats from other flats.




88
  When the survey question allows the respondent to select numerous options, the total response breakdown will be
greater than 100 percent.


                                                       32
Evaluation of the External First-Class                                   FF-AR-12-006
 Measurement System


What most closely describes the process for handling collection mail that misses
the last dispatch of value?

 Drive the mail to the plant                                   83.64%
 Call the delivery truck back                                   2.23%
 Leave the mail for the next day                                5.58%
 Other                                                          8.55%

Are there written procedures for preparing collection mail for dispatch?

Yes 91.14%
No   8.86%

If yes, who prepared the procedures?

Plant                                                          22.36%
District                                                       67.48%
Area                                                            6.91%
Headquarters                                                    1.63%
Other                                                           1.63%

Working Mail Volumes

Please select what most closely describes the process for handling late-arriving
working mail (single-piece First-Class Mail) at your office.

Someone from the office delivers the pieces                             36.90%
Someone takes the pieces to the carrier mid-route                       33.30%
Carriers deliver late-arriving pieces after completing their route       8.40%
Carriers deliver pieces the next business day                           16.40%
Hold Carriers                                                            4.90%




                                             33
Evaluation of the External First-Class                                    FF-AR-12-006
 Measurement System


EXFC Confidentiality

Please select what most closely describes whether your office has identified test
pieces dropped into blue collection boxes along carriers' routes over the last
3 years.

We have not identified any test pieces                                    82.44%
We have not identified any test pieces, but know what they look like       8.02%
We have identified test pieces and know what they look like                9.54%

Based on the survey, we estimate that 2,705 units have identified test pieces over the
last 3 years.

If you have previously identified test pieces, please check the boxes that describe
how your office was able to identify the test piece. (Check all that apply)

By the test piece return address                                          24.24%
By the test piece addressee                                               21.21%
By the test piece appearance/packaging                                    57.58%
Test piece dropper identified during collection box drop                  15.15%
Postage meter serial number identified                                     3.03%
Other                                                                     27.27%

Do you have any knowledge of the identity of EXFC droppers, reporters, or return
address testers?

Yes 3.31%
No 96.69%

Has your office ever identified an EXFC dropper?

Yes 3.35%
No 96.65%




                                            34
Evaluation of the External First-Class                                                     FF-AR-12-006
 Measurement System


Value

The Postal Service implemented EXFC in 1990 and since then the Postal Service
has implemented many new technologies and systems. Do you think the EXFC is
still a good value?

Yes 47.86%
No 52.14%

Feedback

At the end of the survey, we asked for any additional comments. Eighty-seven units
provided additional feedback. Nine responses were positive or expressed satisfaction
with the program while 78 were neutral or negative. Here are some of the comments89
we considered from the units:

      Subject                                              Comment
                     I think that we could provide the same process internally using planet
 Internal
                     codes to test service to our customers which, in turn, would keep us
 Testing
                     from paying someone to test us and still be confidential.

                     We have planet codes. Why are we not using our own system rather
                     than paying a company $23 million a year?

                     Taking into consideration the amount of scanning and the use of
                     intelligent bar codes, paying a private company to drop test pieces is
                     obsolete and not cost effective.

                     I feel we should take our new technologies and systems and use them
                     to the extent we can. I do not feel we can continue to spend enormous
                     dollars on EXFC. It has served us very well, but now we need to take
                     our technologies and systems and use them.

 Special             We spend far too much money shuttling around one or two pieces of
 Treatment           mail that may or may not be test pieces when they miss dispatch.

                     Many of these small offices do go out of their way to get these pieces
                     delivered in a timely manner.

                     We have systems in place to adjust the amount of mail that must be
                     considered a test piece by isolating blue box flats from others. The
                     system is not a true picture of all mail.




89
     We made grammatical changes to their comments and summarized lengthy comments as necessary.


                                                      35
Evaluation of the External First-Class                                         FF-AR-12-006
 Measurement System


   Subject                                          Comment
                   I feel we spend too many hours and mileage chasing an EXFC score.
                   Because the casing time is different for all carriers, there is no way to
                   connect every First-Class piece of mail without driving mail out. This
                   takes time away from the supervisor daily duties to drive mail out. Years
                   ago, if we left no more than three pieces of mail per route it was fine.
                   That worked so much better. If we had the money for driving mail out,
                   mileage money for gas to drive out and backtrack plus the carrier time to
                   deliver we would be better off. Our decline began when we started
                   chasing the EXFC score that we put on ourselves.

 Delivery          Test pieces kept workers honest, but it is costly for the Postal Service.
 Standards         For the price we charge for First-Class Mail, it should never be a 1-day
                   deal. That is why we have Express Mail. The Postal Service just needs
                   to continue hiring hard workers to do the job correctly and efficiently
                   without over spending. Making sure 44 cents gets there overnight — to
                   me that is absurd.




                                               36
Evaluation of the External First-Class                           FF-AR-12-006
 Measurement System


                             Appendix E. Management’s Comments




                                            37
Evaluation of the External First-Class        FF-AR-12-006
 Measurement System




                                         38
Evaluation of the External First-Class        FF-AR-12-006
 Measurement System




                                         39
Evaluation of the External First-Class        FF-AR-12-006
 Measurement System




                                         40
